                          CLOSEOUT FOR CASE M-95050016

         On 24 April 1995, OIG received allegations of misconduct in science in a letter from the
complainant,l that focused on the processing, declination and reconsideration of her NSF
proposal.2 The complainant alleged that the program officer, subject         along with the five ad
hoc reviewers of her proposal, failed to follow NSF's policies and procedures in evaluating her
proposal and, as a result, they discriminated against her by not providing a fair evaluation of her
proposal based solely on its scientific merit. According to the complainant, this included subject
# l Y sfailure to use a 24-page version of her proposal (a preproposal) and 4 volumes of
supplementary documents when he reviewed her proposal. She had provided subject #1 with this
additional information 1 week before she submitted her proposal. She further alleged that the
cognizant Assistant Director (AD), subject #2,4 failed both to provide a fair reconsideration of her
proposal's substance and to assess fairly and impartially subject #I 's and the ad hoc reviewers'
evaluation of her proposal.

       OIG reviewed the complainant's proposal jacket including her preproposal and
supplementary documents and additional information she provided in support of the allegations.
In addition, OIG reviewed the documentation in support of the conclusions of the two
reconsiderations requested by the complainant: the initial reconsideration conducted by subject #2
to reevaluate subject #l's and the ad hoc reviewers' declination decision and the subsequent
reconsideration handled by NSF's Deputy Director (DD) to examine subject #2's reconsideration
decision. We also interviewed subjects #1 and #2.

       Subject #2's reconsideration reviewed the complainant's concerns about subject #1 and the
ad hoc reviewers. First, subject #2 determined that subject #l's selection of reviewers was
appropriate and that they were "competent and knowledgeable" in the area of study represented by
the complainant's proposal. Second, subject #2 determined that subject #1 acted appropriately
when he did not use the preproposal and supplementary documents in the review of the
complainant's proposal. NSF's Grant Proposal Guide imposes a strict format for all proposals
including a 15-page maximum for the project d e s ~ r i ~ t i o nBecause
                                                                  .~     the complainant had not




 pages." Further, it states that "Conformance to the 15-page limit will be strictly enforced and may not be
 exceeded unless the deviation has been specifically authorized" (page 5). On page 3, it states that "Any
                                         Page 1 or 2                                           M-95-16
                              CLOSEOUT FOR CASE M-95050016
obtained the required written waiver from the cognizant AD or designee to exceed the 15-page
limit for her proposal, subject #1 was justified in not including the additional information, which
would have resulted in her proposal exceeding the maximum number of pages. Finally, subject
#2's reconsideration included an analysis of the ad hoc reviewers' comments that showed they did
adhere to the National Science Board's criteria for the evaluation of an NSF proposal. Subject #2
concluded that the complainant's proposal was submitted, accepted, and reviewed normally and
fairly. He found that the complainant's proposal did take over 8 months to process, but concluded
that there was no evidence that subject #1 had delayed the process intentionally. Subject #1
explained to OIG that the complainant had included in her proposal a list of scientists to exclude
from the review of her proposal. Because many of these scientists were experts in the field of
study represented by her proposal, subject #1 said that he had difficulty selecting reviewers.

        The DD's reconsideration included a review of the complainant's concerns about subject
#2's handling of the initial reconsideration as well as a review of the complainant's original
concerns about the processing and review of her proposal. The DD agreed with subject #2's
conclusions that the complainant's proposal had been processed normally and evaluated fairly.
The DD also found that two of the five ad hoc reviewers used to review her proposal had been
suggested by the complainant and that the ad hoc reviews were uniformly negative in describing
her proposal's lack of clarity and novelty. The reconsideration analysis stated that "[tlhe review
ratings and narrative evaluations substantiate [subject #l's] determination that this proposal [was]
non-competitive, and the decision not to fund it." The DD upheld the original declination
decision. In addition, subject #2's alleged mishandling of the initial reconsideration was
determined to be unsubstantiated and no evidence was found for any discrimination against the
complainant by subject #1, subject #2, or the ad hoc reviewers.

r        OIG concluded that there was no substance to the allegations that subject #1 or the ad hoc
reviewers had discriminated against the complainant either by 1) not providing a fair evaluation of
the scientific merits of the proposal, or 2) failing to follow NSF's policies and procedures in
evaluating the proposal. OIG concluded that there was no substance to the allegations that subject
#2 failed to provide a fair evaluation of the proposal's substance or that subject #2 failed to assess.
fairly and impartially subject #1's and the ad hoc reviewers' evaluation of her proposal.

          This case was closed and no further action will be taken.

cc: StafTScientist,Acting Deputy AIG-Oversight, AIG Oversight, IG


    deviations from these instructions [including the page limits] must be authorized in advance by NSF." In this
    case the authorization would have required the "written approval of the cognizant NSF Assistant Director or
    designee" @age 3).
                                               Page 2 of 2                                           M-95-16
